January 24, 2011

STEVEN R. PHELPS
MANAGER, SOX MANAGEMENT CONTROLS AND INTEGRATION

SUBJECT: Interim Management Advisory – Fiscal Year 2011 Financial Testing
         Compliance Oversight Reviews – Birmingham Business Mail Entry Unit –
         Birmingham, AL (Report Number FF-MA-11-005)

This report presents interim results for the U.S. Postal Service Office of Inspector
General’s (OIG) fiscal year (FY) 2011 review of the U.S. Postal Service Financial
Testing Compliance (FTC) Group’s performance and conclusions at the Birmingham
Business Mail Entry Unit (BMEU) Birmingham, AL (Project Number 11BR004FF002),
performed November 29 and 30, 2010. The Birmingham BMEU is in the Alabama
District of the Southwest Area. At the conclusion of FY 2011, we will summarize the
results for all reviews in reports to Postal Service Headquarters.

To comply with Section 404 Sarbanes-Oxley (SOX) Act of 2002 requirements, the
Postal Service must report on the effectiveness of the agency’s internal controls to
ensure accurate financial reporting. It must submit an annual assessment to the Postal
Regulatory Commission (PRC), which monitors and manages the Postal Service’s
compliance with SOX. The Postal Service established the Financial Control and Support
Group to oversee the work of the FTC Group, which conducts tests of key financial
reporting controls. Senior Postal Service leaders use the results to identify and correct
internal control deficiencies and report the overall results to the PRC. We conducted this
oversight review in support of the independent public accounting firm’s reliance on
Postal Service management’s testing, and overall audit opinions on the Postal Service’s
financial statements and internal controls over financial reporting.

The overall objective of our review was to evaluate whether the FTC analysts properly
conducted and documented their examination of SOX financial reporting controls.




                                   Restricted Information
Fiscal Year 2011 Financial Testing Compliance Oversight Reviews –                                  FF-MA-11-005
 Birmingham Business Mail Entry Unit – Birmingham, AL



To perform this work, we observed FTC analysts conduct tests and reviewed their
supporting documentation. We performed this review from November 2010 through
January 2011 in accordance with the Quality Standards for Inspections.1

Conclusion

Based on our review of FTC’s work, we determined FTC analysts properly conducted
and documented their examination of key SOX financial reporting controls. See
Appendix A for the results of our review.

The interim FTC oversight review advisories will be issued to the SOX manager in final
format. At the conclusion of the fiscal year, the OIG will summarize the results of all its
FTC oversight reviews and include recommendations, if applicable, in a report to Postal
Service Headquarters. Management will have the opportunity to formally respond to the
summary report at that time.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lavetta Smith, acting manager,
at 404-507-8313, or me at 404-507-8317.

       E-Signed by William Rickett
    VERIFY authenticity with ApproveIt




William F. Rickett
Acting Director, Field Financial – Central

Attachments

cc: Douglas G. Germer
    Corporate Audit and Response Management




1
  These standards were last issued by the President’s Council on Integrity and Efficiency (PCIE) and the Executive
Council on Integrity and Efficiency (ECIE) in January 2005. Since then, The Inspector General Act of 1978 as
amended by the IG Reform Act of 2008 created the Council of the Inspectors General on Integrity and Efficiency
(CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Inspections have not been amended
to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.



                                                        2
                                             Restricted Information
Fiscal Year 2011 Financial Testing Compliance Oversight Reviews –                                                      FF-MA-11-005
 Birmingham Business Mail Entry Unit – Birmingham, AL



                                                 APPENDIX A: REVIEW RESULTS

       Site Name                                                  Birmingham BMEU
       Finance Number-Unit ID                                     0107800080
       Location Type                                              BMEU
       Scope Period Under Review                                  October 1-November 27, 2010
       FTC Review Program Version and Date                        Review Topic 450000 11/24/10
       FTC Team                                                   Central


                                                                                                              Did the OIG
                                                               Did the OIG      Did FTC        Did FTC         agree with
                                                                  have        perform the     adequately          FTC’s
                                                               exceptions/       step in     document its     exceptions/
                                           Did FTC have         findings      accordance         work       findings (or no
                                            exceptions/         that FTC          to its    performed and     exceptions/
FTC Review             FTC Review         findings in this      did not?       program?      the results?      findings)?
Step#/Control #      Step Description     step? (Yes/No)        (Yes/No)        (Yes/No)       (Yes/No)         (Yes/No)
450001/             Check-in                     No                 No            Yes           Yes              Yes
104CA63/            Procedure
104CA163
450002/             Verification of              No                 No            Yes           Yes              Yes
104CA2              funds on deposit
450003/             Use of Postal                No                 No            Yes           Yes              Yes
104CA65             Service Form
                    3607-P
450004/             Reconciliation               No                 No            Yes           Yes              Yes
104CA66             Process
450005/             SOX                          No                 No            Yes           Yes              Yes
104CA06             Certification
450006/             Postage                      No                 No            Yes           Yes              Yes
104CA1              Statement
                    Completion


                                                                        3
                                                             Restricted Information
